  

Nicholas George
Micaela R. Meadows

Inv or
Daniel W. Dale

 

GARTH DANO
GRANT COUNTY PROSECUTING ATTORNEY

(509) 754-2011, ext. 3955
gdano@grantcountywa.gov
March 17, 2021

Scott S. Harris

Clerk of the Court

Supreme Court of the United States
1 First Street N.E.

Washington, D.C. 20543

Re: Chad Bennett v. Washington
No. 20-1062

Good Morning:

The State of Washington applies to the Clerk of this Court for a thirty (30) day extension of
time to file its Brief in Opposition to Petition for Writ of Certiorari.

Extension is necessary and warranted because of an unanticipated and prodigious workload
increase within the office necessitated by the February 25, 2021 ruling of the Washington
State Supreme Court in State v. Blake, No. 96873-0, 2021 WL 728382, at *12 (Wash. Feb.
25, 2021) declaring simple drug possession under the Revised Code of Washington section
69.50.4013 unconstitutional. All pending charges must be dismissed, defendants incarcerated
on simple possession only must be released, and prior convictions vacated. All paid legal
financial obligations attributable solely to simple possession cases must be refunded.

The time and office resources devoted to sorting through these various ramifications has
impaired the State’s ability to dedicate the attention necessary for assessment of and response
to the issues raised in Mr. Bennett’s Petition.

Sincerely,

    

Lila J. Silverstein, Counsel of Record

‘D:kwm

www.co.grant.wa.us/Prosecutor * PO Box 37 * Ephrata, WA 98823 + phone: (509) 754-2011 + fax: (509) 754-3449
